No. 21-217
IN THE

SUPREME COURT OF THE UNITED STATES
_______________
Marcy Britton, Petitioner
v.
Mayor Tim Keller, Danny Nevarez, and City of
Albuquerque, Respondents.
_______________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
_______________
BRIEF FOR THE RESPONDENTS IN
OPPOSITION
KEVIN A. MORROW
Deputy City Attorney
Counsel of Record
ALAN V. HEINZ
Assistant City Attorney
City of Albuquerque
Legal Department
One Civic Plaza NW
PO Box 2248
Albuquerque, NM 87103
kmorrow@cabq.gov
505.768.4500

ii
Questions Presented
Respondent City of Albuquerque (“City”) runs a
trap, neuter, and release (“TNR”) program, which
catches feral cats, neuters and vaccinates them, then
releases them back into the city. Petitioner alleges
this program results in a taking because the cats enter
her property after they are released by the program.
The questions presented are:
1.

Can feral cats serve as an instrumentality of a

government for the purposes of a paradigmatic
takings claim?
2.

Can a trap, neuter, and release program, which

only regulates feral animals and not property, serve
as a basis for a per se regulatory taking?
3.

Can a trap, neuter, and release program

administered across an entire city serve as a basis for
a § 1983 claim against government actors?

iii
Table of Contents
Questions Presented ……………………………...…… ii
Opinions below …...……………………………..……… 1
Jurisdiction ……………………………………..…….… 2
Statement of the Case ……………………….………... 2
Argument ………………………………………...……… 6
Petitioner Provides No Compelling Reason to Grant
the Writ ….………………………………………. 8
A. Petitioner Fails to Establish the Decisions
Below Were Counter to Supreme Court
Precedent ………………………..………………. 9
B. Petitioner Fails to Establish a Circuit Split .. 11
C. Petitioner Fails to Establish the Courts Below
Misapplied the Law …………………………... 13
Conclusion …………………………………………...… 19

iv
Table of Cited Authorities
Cases:
Cedar Point Nursery v. Hossid, 141 S. Ct. 2063
(2021) ……….……………...………..………10, 11
Fallini v. United States, 56 F.3d 1378, 1383 (Fed.
Cir. 1995) …………………………………….… 13
Leatherman v. Tarrant Cty. Narcotics Intelligence
and Coordination Unit, 507 U.S. 163, 164
(1993) ……..……………………………………… 9
Mountain States Legal Found. v. Hodel, 799 F.2d
1423, 1425-28 (10th Cir. 1986) ……… 7, 12, 13
Penn Cent. Transp. Co. v. City of New York, 438
U.S. 104 (1978) …..……………………… 5, 6, 16
Constitution, statutes, and rules:
NMSA 1978, § 30-18-1 (2007) ………….……. 16, 17
NMSA 1978, § 77-1-12 (2009) ……………….... 2, 18
S CT Rule 10 …………..………………………… 8, 18

1
IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 21-217
Marcy Britton,

Petitioner

v.
Mayor Tim Keller, Danny Nevarez, and City of
Albuquerque,
Respondents.
_______________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
_______________
BRIEF FOR THE RESPONDENTS IN
OPPOSITION
_______________
OPINIONS BELOW
The Tenth Circuit opinion, Pet. App. 1a-11a, is
not published in the Federal Reporter, but is reprinted
at 851 Fed. Appx. 821. The order of the district court,
Pet. App. 17a-33a, is not published in the Federal
Supplement, but is available at 2020 WL 1889017.

2
JURISDICTION
The judgment of the court of appeals was
entered on March 15, 2021, Pet. App. 1a. Mindful of
its duty to correct factual inaccuracies, Respondents
were unable to verify Petitioner filed a petition for
rehearing in the Tenth Circuit. See Pet. 4. On July 19,
2021, the Court issued an order permitting petitions
for a writ of certiorari based on judgments issued on
or before that date to be filed 150 days after judgment
was entered below. Petitioner filed her petition for a
writ of certiorari on August 12, 2021. Pet. i. The
jurisdiction of this Court is invoked pursuant to the
provisions of 28 U.S.C. § 1254(1).
STATEMENT OF THE CASE
Mindful of its duties under New Mexico law,
the City runs a program which captures, sterilizes,
and inoculates feral cats. See NMSA 1978, § 77-1-12
(2009) (requiring municipalities to “make provision by
ordinance for the seizure and disposition of dogs and
cats running at large and not kept or claimed by any
person”). The City’s TNR program is run and
managed by the City’s Animal Welfare Department.
At the time Petitioner’s complaint was filed in district
court, Respondent Danny Nevarez was the director of

3
the Animal Welfare Department. As the City’s TNR
program sterilizes feral cats, it necessarily suppresses
the numbers of feral cats in Albuquerque and
decreases the rate at which feral cats procreate. As
the program inoculates feral cats, it necessarily
suppresses their ability to act as disease vectors and
protects the health of Albuquerque citizens.
Petitioner claims the TNR program results in a
taking of her property for a couple of reasons. First,
Petitioner alleges the TNR effects a taking because
after catching, neutering, and vaccinating the feral
cats, Respondents “abandon” them, resulting in the
establishment of a feral cat colony. Pet. 2. Petitioner
also alleges she was unable to sell her home because
a feral cat wandered onto her property at an
inopportune moment and the alleged potential buyer
cited the presence of feral cats as the reason to not
make an offer. Pet. 3.
On January 28, 2020, Petitioner filed her First
Amended Complaint in the United States District
Court, District of New Mexico, which alleged three (3)
causes

of

action

against

Respondents:

inverse

condemnation, trespass, and nuisance. Petitioner
alleged Respondents Mayor Keller and Director

4
Nevarez, in their individual capacities, committed
partial takings of her property under U.S. CONST.
amend. V, 42 U.S.C. § 1983, N.M. CONST., art. II, §20,
and NMSA 1978, § 42-A-1-29 as a result of alleged
damages from feral cats trapped, neutered, and
released as part of the City's TNR program.
On February 26, 2020, Respondents filed a
motion to dismiss under Fed. R. Civ. P. 12(b)(6) on
qualified immunity and other grounds. Respondents
argued: (1) Petitioner failed to adequately plead
sufficient facts to warrant individual liability against
Respondents Mayor Keller and Director Nevarez
under Section 1983 and (2) these Respondents were
entitled to qualified immunity because Petitioner
failed to plead facts plausibly establishing that either
Mayor Keller or Director Nevarez violated a clearly
established constitutional right. Respondents further
argued the Fifth Amendment takings claim and
alternative inverse condemnation cause of action
should be dismissed because Petitioner failed to allege
sufficient facts to satisfy the Fed. R. Civ. P. 12(b)(6)
dismissal standard. Petitioner responded by arguing
her complaint was sufficiently plausible and that
individual liability was now at issue because

5
individual Respondents Mayor Keller and Director
Nevarez had put it in dispute. The district court below
rejected Petitioner’s arguments and concluded she
“fails to state a claim under [the] Takings clause,
because any diminution in private property value was
incidental to the City of Albuquerque’s exercise of its
police power, which did not regulate [Petitioner]’s
property.” Pet. App. 19a. Further, the district court
correctly found Petitioner “failed to adequately plead
the

personal

involvement

of

the

individual

[Respondents] in the alleged takings violation.” Pet.
App. 27a.
Petitioner appealed the district court’s decision
to the United States Court of Appeals for the Tenth
Circuit, arguing her complaint was consistent with
other takings claims and the TNR program cannot be
a valid use of the City’s police powers because it
violates state law. Petitioner also argued the district
court erred by engaging in a Penn Central analysis
using the facts as pled by Petitioner. See generally
Penn Cent. Transp. Co. v. City of New York, 438 U.S.
104 (1978). Finally, in response to the district court’s
conclusion that she failed to plead sufficient facts to

6
survive a motion to dismiss, Petitioner argued she was
entitled to bring a § 1983 lawsuit.
The Tenth Circuit affirmed the district court.
In doing so, the court held “[t]he feral cats here are
likewise beyond the City’s control and [Petitioner’s
cited caselaw] provides no support for [Petitioner]’s
claim.” Id. 8a. “[T]he question is whether the City has
violated the United States Constitution’s Takings
Clause[.] We hold that it has not.” Id. The Tenth
Circuit further held “the district court did not err in
assessing whether [Petitioner]’s factual allegations
were sufficient to state a regulatory taking claim
under the governing legal standard.” Id. 11a. As to the
actual balancing of Penn Central factors, the Tenth
Circuit held Petitioner “forfeited the argument that
her amended complaint could survive if the district
court correctly performed the Penn Central analysis
at the motion to dismiss phase.” Id.
Petitioner then filed her petition for a writ of
certiorari and seeks review of the decisions below. Pet.
iii.
ARGUMENT
Petitioner’s claim flounders for one simple
reason—she has failed to establish a taking under the

7
law of any federal or state court. Petitioner insists a
feral cat colony is the instrumentality through which
Respondents have taken possession of her property.
This is in direct contravention of Tenth Circuit
caselaw which holds wild animals cannot be the
instrumentality

through

which

a

government

physically invades property and commit a taking. See
Mountain States Legal Found. v. Hodel, 799 F.2d
1423, 1425-28 (10th Cir. 1986). Undeterred by binding
precedent and common sense, Petitioner continues to
assert that feral cats are somehow more akin to a flood
than a herd of wild horses. Petitioner offers no cogent
explanation or caselaw in support of this assertion.
To

rectify

her

failure

to

allege

an

unconstitutional taking, Petitioner implies this Court
should do one of two things. First, the Petitioner
implies this Court should overturn Tenth Circuit
precedent and hold that wild animals such as feral
cats can serve as an instrumentality of a government
and effect a taking when the feral cats physically
invade property. Petitioner cites no caselaw from
another circuit to justify this request and, in fact,
doesn’t cite any caselaw to contradict this key Tenth
Circuit

holding.

Instead,

without

bothering

to

8
explicitly ask the Court, Petitioner asks this Court to
overturn well established Tenth Circuit precedent.
Alternatively, Petitioner asks this Court to hold the
City’s TNR program violates New Mexico’s criminal
laws and therefore any alleged taking, regardless of a
plaintiff’s inability to establish a physical invasion or
deprivation of economic use, is in violation of the
United States Constitution. Petitioner engages in no
in-depth analysis on this issue and does not cite any
New Mexico caselaw drawing an analogy between the
TNR program and other actions in violation of the
cited criminal statute.
Petitioner Provides No Compelling Reason to
Grant the Writ
“A petition for a writ of certiorari will be
granted only for compelling reasons.” S CT Rule 10.
Petitioner spends precious little, if any, time
explaining the compelling reasons the writ should be
granted. Petitioner does not allege or establish a
circuit split. Petitioner does not allege an important
question of federal law, which should be settled by this
Court, yet was decided by another court. Petitioner
alleges the courts below didn’t follow the relevant
decisions of this Court, but fails to make a cogent

9
argument demonstrating the same. Petitioner does
rehash her merits arguments from below and asks
this Court to reverse the lower courts by applying the
same legal standard to the same allegations.
Petitioner’s writ arises from the lower court’s
dismissal of Petitioner’s complaint. Pet. App. 32a. As
such, and regardless of the fact they lack internal
logical

consistency, 1

Petitioner’s

well-pled

Respondents
allegations

as

treat
true.

the
See

Leatherman v. Tarrant Cty. Narcotics Intelligence and
Coordination Unit, 507 U.S. 163, 164 (1993).
A.

Petitioner

Fails

to

Establish

the

Decisions Below Were Counter to Supreme
Court Precedent
Perhaps the only effort Petitioner makes to
establish a compelling reason to grant her petition is
by arguing the lower courts entered a decision
inconsistent with this Court’s decision in Cedar Point

1For

instance, Petitioner simultaneously alleges Respondents
vaccinate feral cats, pet. 1, yet are responsible for spreading
disease through the feral cats, id. 2. Petitioner also
simultaneously alleges Respondents pick the feral cats up from
the streets and neuter them, id. 1, yet are inexplicably
responsible for creating the population of feral cats, id. 2.
Regardless of the logical incongruities, Respondents view the
allegations in a light favorable to Petitioner’s claim.

10
Nursery v. Hossid, 141 S. Ct. 2063 (2021). Petitioner
contends Cedar Point is “[t]he most consistent
precedent that was unavailable at the time that [the]
Tenth Circuit considered this case[.]” Petition 14.
Cedar Point involved California legislation which
granted labor organizations the right to access
agricultural employer’s property. Cedar Point, 141 S.
Ct. 2069. The City’s TNR program does not require
property owners to allow feral cats onto their
property. More tellingly, Petitioner does not even
allege the City’s TNR program requires property
owners to permit cats onto their property. Petitioner
has made no claim the City’s ordinance compels
property owners to allow anyone or anything onto
private property. Cedar Point is illustrative in this
case because it highlights Petitioner’s failure to
successfully allege an unconstitutional taking.
Petitioner is mistaken when she contends the
Cedar Point analysis she cites supports her position.
Pet. 14. The analysis cited in the petition occurs after
a physical invasion has been established. Id. 2074
(“The regulation appropriates a right to physically
invade the growers’ property—to literally ‘take
access,’ as the regulation provides[.] It is therefore

11
a per se physical taking under our precedents.”). The
opening sentence of the quoted text, even out of
context, clearly indicates this and states “[n]one of
these considerations undermine our determination
that the access regulation here gives rise to a per
se physical taking.” 2079-80. This sentence clearly
establishes the Cedar Point court had already
determined there was a physical invasion and had
moved on to a balancing test to determine whether it
constituted a compensable Fifth Amendment taking.
Here, no such determination was made by the courts
below because Petitioner failed to allege facts
sufficient to demonstrate Respondents physically
invaded her property. Petitioner’s reliance on this
analysis to establish a taking in the first place is
therefore mistaken and contrary to the law she herself
cites.
B. Petitioner Fails to Establish a Circuit
Split or any Conflict of Law
Petitioner does not allege a circuit split on the
questions presented. Petitioner cites no conflicting
caselaw from another circuit, state court of last resort,
or even a district court. Instead, Petitioner implicitly
asks this court to overrule the Tenth Circuit, which

12
has held wild animals, even when regulated, are not
an instrumentality of the regulating government and
the government does not physically invade property
when the wild animals wander onto it. Mountain
States, 799 F.2d 1425-28.
Mountain States presents a stronger factual
predicate for a taking because the law at issue in
Mountain States subjected property owners to
potential criminal liability if they interfered with or
tried to remove the wild horses from their property.
Id. 1425. This and the alleged failure of the federal
government to remove the horses from property in
Mountain States resulted in the horses grazing on the
land, eroding the topsoil, and consuming “vast
quantities of forage and water.” Id. As such,
landowners were explicitly prohibited from expelling
wild animals from their property. Even this stronger
legislative schema did not constitute a taking.
Petitioner fails to allege any such penalties are
at issue with the City’s TNR program. Even if the
Court were to overrule Mountain States and hold feral
cats can function as the instrumentality of a
government for the purposes of establishing a taking,
Petitioner still fails to allege that the TNR program

13
prevents her from removing the feral cats from her
property, which was the case in Mountain States.
Accordingly, the City’s program, even as alleged,
constitutes a far lesser burden than what was
affirmed as a lawful act in Mountain States.
C. Petitioner Fails to Establish the Courts
Below Misapplied the Law
Petitioner does not claim the lower courts
improperly stated the law. Instead, Petitioner appears
to argue the lower courts misapplied the law when it
looked to the actions of the feral cats instead of
Respondent’s actions. Pet. 13. Indeed, as Petitioner
herself argues, a party making a takings claim must
focus on the actions of the governmental agency
alleged to have made the taking. Fallini v. United
States, 56 F.3d 1378, 1383 (Fed. Cir. 1995). The
Fallini court further clarified this principle: “[t]he
only governmental action that could constitute a
compensable taking in this case is the government's
directive forbidding the Fallinis from shooing the
horses away from the water that the Fallinis have
produced at their developed water sources.” Id.
(continuing

from

the

very

sentence

cited

by

Petitioner). Petitioner alleges no such directive in this

14
case and one does not exist. The requirement to focus
on the

actions taken by

the

government

is,

fundamentally, why Petitioner’s taking claim fails
and one of the many reasons the courts below ruled
against her. Pet. App. 21a-22a (focusing on the
government’s lack of liability for the actions of wild
animals); Pet. App. 24a (“Here, [Respondents] do not
regulate Plaintiff’s property for the benefit of the
public. Nor do they regulate [Petitioner]’s property at
all.”).
Now however, Petitioner appears to have
partially recognized the fatal flaw in her takings
argument and desperately seeks to recast her
arguments below as something entirely different.
Petitioner did not take care when recycling her
previous arguments into her petition and the duplicity
is evident in the petition. Petitioner blames the
presence of a feral cat on her property for an incident
where she failed to sell her home. Pet. 3. Petitioner
discusses the “physical damage caused by colonies of
feral cats.” Pet. 13. Petitioner talks about the “the
damage and blighting of her property [caused] by
releasing a large population of feral cats[.]” Pet. 17.
Petitioner argues Respondents blighted “her private

15
property with the extreme nuisance of establishing a
feral cat colony over the top of her quiet enjoyment of
her property.” Pet. 20. Petitioner argued in the district
court below “that the feral cats, released by the City
‘in the vicinity of the property in question,’ constitutes
a ‘physical occupation’ of her property by the
Government.” Pet. App. 20a. Petitioner’s claim that
she focuses on the actions of Respondents is
inconsistent with her theory of the case and the
arguments she has made before this Court and the
courts below.
Faced with the fact she failed to allege an
unconstitutional

taking,

Petitioner

wants

to

simultaneously argue the courts below improperly
focused on the actions of the feral cats while using
those very same actions to justify her argument that
Respondents

are

responsible

for

the

alleged

diminution of her property value.
Focusing on the actual actions of the City as
alleged by Petitioner makes it clear there was no
taking. The City picks up feral cats by trapping them.
Pet. 1. The City neuters and vaccinates the feral cats.
Id. The City then releases the feral cats by dropping

16
them off where they were caught or at another
location. Id. 1-2.
There are no allegations the City requires
property owners to house the cats. There are no
allegations City personnel invade private property.
There are no allegations the cats are dumped en masse
on specific privately-owned properties. There are no
allegations the City’s TNR program prevents property
owners from chasing the cats from their property or
otherwise engaging with the cats and preventing
them from entering their property. By focusing on the
City’s actual actions, it is abundantly clear why
Petitioner’s claim fails—government action is simply
not responsible for any loss of property value or any
invasion of her property.
Lastly, Petitioner alleges the courts below
misapplied the law because the TNR program is in
violation of a New Mexico criminal statute. Pet. 15.
Petitioner argues the Respondents “abandon” feral
cats in violation of NMSA 1978, Section 30-18-1
(2007), and therefore the TNR program is inconsistent
with state law and cannot be a valid exercise of the
City’s police powers. Id. 15-16. This argument is part
of Petitioner’s regulatory non-per se argument, which

17
she waived by failing to preserve it for the Tenth
Circuit’s review. Pet. App. 11a (citing Penn Cent.
Transportation Co. v. City of New York, 438 U.S. 104
(1978)). Petitioner makes no argument to establish
this issue was properly preserved before the Tenth
Circuit and has therefore failed to properly preserve
this argument for this Court’s review. For this reason
alone, this Court should decline to give Petitioner
another bite at the apple by considering this
argument.
Preservation issues aside, a plain reading of
Section 30-18-1 exposes the logical flaw in Petitioner’s
interpretation. Section 30-18-1 specifically excludes
from its ambit “rodent or pest control” and “other
similar activities not otherwise prohibited by law.”
Section 30-18-1(I). The City’s TNR program neuters
feral cats so they can’t reproduce and vaccinates them
so they’re less likely to spread disease. The TNR
program is quintessentially a pest control program
and failing that, is definitively one of many “similar
activities not otherwise prohibited by law.” Petitioner
cites no New Mexico caselaw which contradicts this
plain reading of the statute or caselaw, which even
implies these plainly applicable exceptions are

18
inapplicable to pest control ordinances such as the
City’s TNR program. To the contrary, the City is
required to institute a program to control the
population of feral animals. See NMSA 1978, § 77-112.

Instead,

Petitioner

expects

this

Court

to

summarily conclude the Respondents, including two
individuals, have violated a state criminal law. Then
Petitioner wants this Court to allow a takings claim
to proceed even though it fails to allege Respondents
are responsible for a legally cognizable physical
invasion or deprivation of all economic value of her
property. In support of this expectation, Petitioner
provides

one

paragraph

of

argument

and

no

supporting citation which can be used to support her
contention the Respondents’ TNR program is in
violation of a New Mexico criminal statute.
The courts below properly applied the law and
Petitioner’s arguments to the contrary fail on the
grounds above. Even if Petitioner is right and the
courts below misapplied the law, “[a] petition for a
writ of certiorari is rarely granted when the asserted
error consists of erroneous factual findings or the
misapplication of a properly stated rule of law.” S CT
Rule 10. Petitioner does not claim the courts below

19
improperly stated any rule of law and her arguments
the courts below misapplied the law are without
merit.
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted.
KEVIN A. MORROW
Deputy City Attorney
Counsel of Record
ALAN V. HEINZ
Assistant City Attorney
City of Albuquerque Legal
Department
One Civic Plaza NW
PO Box 2248
Albuquerque, NM 87103
kmorrow@cabq.gov
505.768.4500

